                                Office of Inspector General
                               Corporation for National and
                                        Community Service




              PRE-AUDITSURVEY
                            OF THE
               NEBRASKA VOLUNTEER
                SERVICECOMMISSION

        OIG REPORT  NUMBER   04-06
SEPTEMBER 5,2003, except for Appendix A as
   to which the date is October 6, 2003



                                                Cornoration for             A


                                                NATIONAL=
                                                COMMUNITY
                                                SERVICE-




                        Prepared by:

                COTTON & COMPANY LLP
             333 North Fairfax Street, Suite 401
                 Alexandria, Virginia 22314




 This report was issued to Corporation management on January 28,2004. Under
 the laws and regulations governing audit follow up, the Corporation is to make
 final management decisions on the report's findings and recommendations no
 later than July 28, 2004, and complete its corrective actions by January 28,
 2005. Consequently, the reported findings do not necessarily represent the
 final resolution of the issues presented.
                                   Office of Inspector General
                         Corporation for National and Community Service
                                       Audit Report 04-06

                Audit of Corporation for National and Community Service Grants
                                         Awarded to the
                           Nebraska Volunteer Service Commission

Introduction

The Corporation for National and Community Service, pursuant to the National and Community
Service Trust Act, as amended, awards grants and cooperative agreements to State commissions,
nonprofit entities, tribes, and territories to assist in the creation of full- and part-time national and
community service programs. Currently, under the Act's requirements, the Corporation awards
approximately three-fourths of its AmeriCorps*State/National funds to State commissions. The
State commissions in turn fund and are responsible for the oversight of subgrantees who execute
the programs. Through these subgrantees, AmeriCorps members perform service to meet
educational, human, environmental, and public safety needs.

The Office of Inspector General retained Cotton & Company LLP to perform a pre-audit survey
of the Nebraska Volunteer Service Commission. The objective of the pre-audit survey was to
evaluate: (1) the adequacy of the pre-award selection process; (2) the administration of grant
funds; and (3) grant monitoring. The audit period included Program Years 2000-2001 and
200 1-2002.

The Commission was awarded AmeriCorps Formula, AmeriCorps Competitive, Program
Development and Training, and Administrative grants of approximately $4,126,932 for the
period covered by the survey. The auditors noted that the Commission had no written policies
and procedures for the pre-audit survey period. Also, Commission records of administering
grant funds and evaluating and monitoring subgrantees were incomplete for the survey priod.
The auditors recommended performing of a full-scope audit for Program Years 2000-2001 and
200 1-2002.

The Office of Inspector General has reviewed the report and the work papers supporting the
auditors' conclusions. Our review of the auditors' work papers disclosed no instances where
Cotton & Company LLP did not comply, in all material respects, with generally accepted
government auditing standards.

The Office of Inspector General provided the Nebraska Commission and the Corporation with a
draft of this report for their review and comment. Their responses are included in their entirety
as Appendices C and D, respectively.
                    OFFICEOF INSPECTORGENERAL
                      FOR NATIONAL
             CORPORATION          AND COMMUNITYSERVICE
                      PRE-AUDITSURVEY OF THE
                NEBRASKA
                       VOLUNTEER SERVICE COMMISSION

                                    Table of Contents

Summary of Results. ....................................................................

Background. .............................................................................
      The Corporation for National and Community Service.. .................
      The Nebraska Volunteer Service Commission. ............................

Objectives, Scope, and Methodology.. ..............................................

Results of Fieldwork.. ..................................................................
       Internal Control.. ...............................................................
       Selecting Subgrantees.. .......................................................
       Administering Grant Funds. ..................................................
       Evaluating and Monitoring Grants.. .........................................

Appendix A: Funding Hierarchy Flowcharts

Appendix B: Detailed Engagement Objectives and Methodology

Appendix C: Nebraska Volunteer Service Commission Response

Appendix D: Corporation Response
                             COTTON COMPANY LLP
                                                             auditors e advisors
  333 NORTH FAII:IA\    S T K ~*~SLII
                                  T TE   40 I   * A1 I '\ANIlRIA VIIKJNIA223 14 * 703/S36/6701   4   r4x 703iS36109-i I   * \V\V\VCOTrONCPA   COM




September 5,2003, except for Appendix A, which is dated is October 6,2003



Office of Inspector General
Corporation for National and Community Service

Cotton & Company LLP performed a pre-audit survey of the Nebraska Volunteer Service
Commission in accordance with the terms of the statement of work, dated June 24,2003, by and
between Cotton & Company and the Office of Inspector General (OIG), Corporation for
National and Community Service (Corporation).

The primary survey objectives were to evaluate:

                       The adequacy of the Nebraska Commission's pre-award selection process.

                       The procedures for fiscal administration of Corporation grants.

                       The effectiveness of the Nebraska Commission's procedures for monitoring
                       subgrantees, including ArneriCorps member activities, service hours, and
                       statistics, and other information related to program accomplishments.

We also issued a letter to the OIG concerning our conclusions on audit risk and
recommendations as to the nature and scope of additional procedures.

We conducted our procedures in accordance with Government Auditing Standards issued by the
Comptroller General of the United States in 2003. We were not engaged to and did not conduct
an audit of financial statements, the objective of which would be the expression of an opinion.
Accordingly, we do not express such an opinion. Further, our procedures were not sufficient to
express an opinion on the Nebraska Commission's internal control or on its compliance with
laws, regulations, contracts, and grants. Accordingly, we do not express such an opinion. Had
we performed additional procedures, other matters might have come to our attention that would
have been reported to you.

As required by Government Auditing Standards, we obtained written management
representations from the Nebraska Commission. However, we were unable to obtain
management representations for the entire period of our procedures, which is a limitation on the
scope of our engagement.
This report is intended solely for the information and use of the OIG and is not intended to be
and should not be used by anyone other than the OIG.

COTTON & COMPANY LLP



Alan Rosenthal, CPA
Partner
SUMMARY OF RESULTS

We were engaged by the Office of Inspector General, Corporation for National and Community
Service, to provide an assessment of the systems and procedures in place at the Nebraska
Volunteer Service Commission (Commission) for administering its AmeriCorps grants and
monitoring the fiscal activity of its subgrantees. The primary purpose of this pre-audit survey
was to evaluate:

       .       The adequacy of the pre-award selection process

       rn      The administration of grant funds

               Grant monitoring

During fieldwork, the Commission was unable to produce any written documentation of policies
and procedures for the pre-audit survey period. The executive director advised Cotton &
Company that written policies and procedures for the period of the pre-audit survey did not exist,
and that all personnel who had worked at the Commission during the survey period were no
longer employed by the Commission. Accordingly, we were not able to conduct interviews or
obtain any oral information from employees with regard to policies, procedures, and processes at
the Commission for the pre-audit survey period. We have made the following preliminary
assessments regarding the Commission's systems for administering its AmeriCorps grants:

               For the pre-audit survey period, the Commission did not have written policies and
               procedures for:
                      Internal control
                       Selecting subgrantees
                      Administering grant funds
                      Evaluating and monitoring subgrantees

               For Program Years 2000-2001 and 2001-2002, Commission files were incomplete
               for:
                      Administering grant funds
                      Evaluating and monitoring subgrantees

The findings and recommendations presented in this report describe these matters in detail and
address additional issues noted during the survey.

During the period of our pre-audit survey, the Commission's ArneriCorps grants were not
audited as a major program under Office of Management and Budget (OMB) Circular A-133.
Based on the findings outlined above and the fact that the Commission's programs have not been
audited as major programs, we recommend a full-scope, cost-incurred audit for Program Years
2000-2001 and 2001-2002.

We also recommend that the Corporation follow up with the Commission to determine that
appropriate corrective actions have been taken to address the conditions reported herein, and that
the Corporation consider these conditions in its future oversight and monitoring of the
Commission.

BACKGROUND

The Corporation for National and Community Service

The National and Community Service Trust Act of 1993, which amended the National and
Community Service Act of 1990, established the Corporation for National and Community
Service. The Corporation funds opportunities for Americans to engage in service that fosters
civic responsibility, strengthens communities, and provides educational opportunities for those
who make a substantial commitment to service.

The Corporation awards grants and cooperative agreements to State commissions, nonprofit
entities, and tribes and territories to assist in creating full- and part-time national and community
service programs. Through these grants, AmeriCorps members perform service to meet
educational, human, environmental, and public safety needs throughout the nation, with special
attention focused on needs related to poverty. In return for their service, program participants
may receive a living allowance and a monetary award presented for educational purposes.

The Corporation awards approximately 75 percent of its AmeriCorps funds to State
commissions. State commissions are responsible for developing and communicating a vision
and ethic of service throughout their State.

Additionally, State commissions, acting as grantees, distribute funds to subgrantees to enable
them to administer service programs. State commissions are responsible for monitoring
subgrantee compliance with grant requirements. The commissions are also responsible for
providing training and technical assistance to the service programs. State commissions,
however, are prohibited from directly operating service programs.

The Nebraska Volunteer Service Commission

The Nebraska Volunteer Service Commission was established in December 1994 by executive
order of the Governor to promote, mobilize, and support the efforts of all Nebraskans in
strengthening their communities, State, and Nation through community service. The Corporation
funds the Commission. The Department of Health and Human Services of the State of Nebraska
provides accounting support to the Commission.

The Commission has had significant employee turnover in the past few years. It currently has
four full-time employees and one contract employee. The positions include the executive
director, two program officers, a Program Development Assistance and Training
(PDAT)/disability coordinator, and the fiscaVoffice manager. The executive director assumed
that position in January 2001. The rest of the staff have joined the Commission since 2002.

The Commission is included in the Nebraska state wide OMB Circular A-133 audit. However,
the Corporation's grants were not tested as major programs during the pre-audit survey period.
The Commission provided the following information for Program Years 2000-2001 and 2001-
2002:

                                     Expenditures of              Number of
              Program Year         Corporation Funding           Subgrantees




OBJECTIVES, SCOPE, AND METHODOLOGY

Cotton & Company was engaged by the OIG to assess systems and procedures in place at the
Nebraska Commission for administering AmeriCorps grants and monitoring subgrantee fiscal
activity. The primary purpose of this pre-audit survey was to evaluate:

              The adequacy of the pre-award selection process

              The administration of grant funds

              Grant monitoring, including:
              1. Fiscal monitoring of ArneriCorps State subgrantees;
              2. Monitoring of program accomplishments and other performance statistics; and
              3. Monitoring of AmeriCorps member-eligibility and service-hour reporting.

Our survey included the following procedures:

              Reviewing applicable laws, regulations, grant provisions, the Corporation's State
              Administrative StancEnrds Tool, and other information to gain an understanding of
              legal, statutory, and programmatic requirements.

              Reviewing OMB Circular A-133 reports and grant agreements between the
              Corporation and the Commission for Program Years 2000-2001 and 2001-2002.

              Obtaining information from Commission management to complete the flowcharts
              in Appendix A, which document the hierarchy of Corporation funding to the
              Commission for Program Years 2000-2001 and 2001-2002.

              To the extent possible, conducting inquiries, observations, investigations, and
              examinations of a limited sample of source documents to meet the objectives and
              methodology specified in Appendix B.

We summarized the results of our work to develop the findings and recommendations presented
in this report. We discussed all findings with Commission management during an exit
conference on September 5, 2003. Additionally, we provided a drafl of this report to the
Commission and the Corporation. Commission and Corporation responses to our findings and
recommendations are included as Appendices C and D, respectively.
RESULTS OF FIELDWORK

Internal Control

According to 45 CFR § 2541.200, the Commission must maintain financial management systems
that provide "accurate, current, and complete disclosure of the financial results of financially
assisted activities." The Commission must also provide "[elffective control and accountability
. ..for all grant and subgrant cash, real and personal property, and other assets."
At the beginning of this engagement, a list of documents required for fieldwork was forwarded to
the Nebraska Commission. The list included a request for copies of written policies and
procedures for Program Years 2000-2001 and 2001-2002. During fieldwork, however, the
Commission was unable to produce any written documentation of policies and procedures for the
pre-audit survey period. The executive director advised us that written policies and procedures
for the period of the pre-audit survey did not exist, and that all personnel who had worked at the
Commission during that time were no longer employed by the Commission.

As a result, we were unable to interview or obtain any oral information from employees with
regard to the Commission's internal controls for the pre-audit survey period. Additionally, we
were unable to determine if the Commission had established any internal controls for this period.
As a result, we were unable to determine the adequacy of internal controls or perform any
procedures to determine if these controls were operating as intended.

Finding: The Corrtmission din not have writteiz policies andprocedures for internal controlfor
the pre-audit survey period.

45 CFR 9 2541.2OO(b)(3) states:

       Internal Control. Effective control and accountability must be maintained for all
       grant and subgrant cash, real and personal property, and other assets. Grantees
       and subgrantees must adequately safeguard all such property and must assure that
       it is used solely for authorized purposes.

Recommendation: The Commission represented that it is in the process of developing and
implementing internal control policies and procedures. We recommend that the Corporation
review these newly formulated policies and procedures to determine if they comply with grant
requirements and ensure that they are properly implemented.
Selecting Subgrantees

45 CFR $ 2550.80(b)(I) states that each State commission must:

        Administer a competitive process to select national service programs to be
        included in any application to the Corporation for funding.

As indicated in the preceding discussion of internal controls, the Commission's executive
director stated that written policies and procedures for the pre-audit survey period did not exist.
However, in response to our request for information the executive director did prepare a
memorandum that detailed her understanding of the selection process in use during Program
Year 2001-2002.

The Commission maintained certain records of subgrantees selected during this period and
provided a list of subgrantee applicants. This list included ten applications that were accepted
and an eleventh application that was rejected. We selected four of the accepted applicants to test
the records maintained by the Commission to determine if the subgrantee selection process was
open and competitive during the pre-audit survey period.

We obtained a copy of the Notice of Funds Available (NOFA) letter distributed to potential
applicants. However, there was no documentation that the Commission administered an open,
competitive application process. Additionally, Commission files did not contain documentation
of the pre-award financial and programmatic risk assessments for the subgrantees.

We obtained and reviewed guidance provided to subgrantee selection officials. Subgrantee
applications are reviewed by a peer review panel. Peer reviewers are required to sign a conflict-
of-interest and privacy statement. Grant applications, along with instructions and score sheets,
are sent to reviewers. Score sheets did not, however, contain documentation to support the
conclusion that a review of subgrantee financial systems was included as part of the review
process.

Reviewers then meet to discuss and combine their score sheets to arrive at one final score. Based
on the peer review panel recommendation, the Commission notifies applicants by letter if the
application was accepted. The file for the one rejected applicant did not contain a letter to notify
them that the application was rejected. We reviewed the score sheet for this applicant and noted
that it received the lowest score. The peer review panel did not recommend that this applicant
receive a grant.

Finding: The Commission did not have written policies and procedures for selecting
stlbgrantees for the pre-azrdit survey period.

Although the Commission's executive director provided a memorandum of her understanding of
the selection process that had been in use during the pre-audit survey period, we were unable to
determine if the Commission's subgrantee selection process was open and competitive, in
accordance with 45 CFR 5 2550.80(b)(l). Further, there was no documentation as to whether the
subgrantees' financial systems were evaluated in the selection process.
Recommendation: The Commission represented that it is in the process of developing and
implementing policies and procedures for selecting subgrantees. We recommend that the
Corporation review these new policies and procedures to ensure their compliance with grant
requirements and their proper implementation.

Administering Grant Funds

According to 45 CFR 8 2550.80(d), State commissions "will be responsible for administering the
grants and overseeing and monitoring the performance and progress of funded programs."

As discussed above in the internal control finding, the Commission did not have policies and
procedures for administering grant funds during the pre-award survey period, and it did not
maintain complete subgrantee files. Thus, we were unable to perform test procedures to
determine the adequacy of grant administration.

Finding: TIze Commissiorz did not have written policies and procedures for administering
grant funds for tlzepre-audit survey period.

45 CFR fj 2541.200(b)(3) requires effective control and accountability over grants.

Recomme~zdatiorz: The Commission represented that it has implemented policies and
procedures for administering grant funds. We recommend that the Corporation review these new
policies and procedures to determine if they comply with grant requirements and ensure'that they
are properly implemented.

Finding: TIze Conzmissioiz 'sfiles for administeri~lggrant funds were inadequate for Program
Years 2000-2001 and 2001-2002.

Documentation contained in the files was inconsistent with regard to the types of documents on
file for the subgrantees and the amount of documents on each subgrantee. Thus, we were unable
to determine what grant administration procedures were performed by the Commission during
the pre-audit survey period.

45 CFR fj 2550.80(d) requires State Commissions to "be responsible for administering the grants
and overseeing and monitoring the performance and progress of funded programs."

Recommerzdatio~z: The Commission represented that it is in the process of developing and
implementing policies and procedures for administering grant funds. We recommend that the
Corporation review these new policies and procedures to determine if they comply with grant
requirements and ensure that they are properly implemented.
Evaluating and Monitoring Grants

45 CFR 5 2550.80(e) states that the Commission, "in concert with the Corporation, shall be
responsible for implementing comprehensive, non-duplicative evaluation and monitoring
systems."

As discussed above in the internal control finding, the Commission did not have policies and
procedures for administering grant funds during the pre-award survey period, and it did not
maintain complete subgrantee files. Thus, we were unable to test procedures to determine if the
Commission followed procedures that adequately evaluated and monitored grants.

Finding: Tlze Commission did not Izave written policies and procedures for evaluating and
inonitoriizg sccbgraiztees for the pre-audit survey period.

45 CFR 8 2541.200(b)(3) requires effective control and accountability over grants.

Recom~neizdation: The Commission represented that it is in the process of developing and
implementing policies and procedures for evaluating and monitoring grants. We recommend
that the Corporation review these new policies and procedures to determine if they comply with
grant requirements and ensure that they are properly implemented.

Finding: The Commission's files related to evaluating and monitoring subgrantees were
incomplete for Program Years 2000-2001 and 2001-2002.

Documentation contained in the files was inconsistent with regard to the types of documents on
file for the subgrantees and the amount of documents on each subgrantee. Thus, we were unable
to determine if the Commission followed any grant evaluation and monitoring procedures during
the pre-audit survey period. Such procedures are required by 45 CFR 8 2550.80(e).

Recommendation: The Commission represented that it is in the process of developing and
implementing policies and procedures for evaluating and monitoring grants. We recommend
that the Corporation review these new policies and procedures to determine if they comply with
grant requirements and ensure that they are properly implemented.
                                                                                                                   Appendix A
                                                                                                                    Page 1 of 2

                                            Office of Inspector General
                                  Corporation for National and Community Service
                                   State Commission Pre-Audit Survey: Nebraska
                                           Funding Hierarchy Flowchart



                           Corporation for National and Community Service
                        Funding to the Nebraska Volunteer Service Commission
                                       For the Period 2000-2001




                                                      i
        AmeriCorps              ArneriColps              Learn and          PDAT             Administrative
         Fo~mula                Competitive                                 Funds               Funds
          Funds                   Funds                    Funds                               $158,759
                                                                                                 Match
          $266,786               $1,357,166                                $84,000             $183,469
                                                                                              Other CNCS
           Match                   Match                   Match                                 Funds
          $265,337                $364,268                                                     $250,000
                                                                                              (List below)




                                   *                      *              I
                                                                         +                         +
                         Total CNCS Funds Retained by the Commission $242,759

                                 Total Commission Matching Funds $183,469

                          Total CNCS Funds Awarded to Sub grantees $1,873,952




       AmeriCorps
        Formula
        $266,786
                                 AmeriCorps
                                 Competitive
                                                  r-  Learn and Serve


                                                            $0               $84,000
                                                                                               Administrative




         Match
        $265,337           1       Match
                                $364,268.12
                                                          Match
                                                            $0
                                                                                                    Match
                                                                                                  $1 83,469

     Total # of SUBS
             4
                           I   Total X of SUBS        Total # of SUBS
                                                              0
                                                                         Total # of SUBS
                                                                                0
                                                                                              Total # of SUBS
                                                                                                       0

     Total # of Sites
            9
                           I L L
                               Total # of Sites
                                                  I
                                                      Total # of Sites
                                                              0
                                                                         Total # o f Sites
                                                                                0
                                                                                               Total # o f Sites
                                                                                                       0


Notes: Other CNCS funds of $250,000 consist of Education Awards to one subgrantee,
Nebraska Teacher Corps.
FSRs did not reconcile to amounts in WBRS. Corrected FSRs were submitted by the
Commission on October 6,2003.
                                                                                                               Appendix A
                                                                                                                Page 2 of 2
                                            Office of Inspector General
                                  Corporation for National and Community Service
                                   State Commission Pre-Audit Survey: Nebraska
                                           Funding Hierarchy Flowchart



                            Corporation for National and Community Service
                         Funding to the Nebraska Volunteer Service Commission
                                        For the Period 200 1-2002




      AmeriCorps                AmeriColps        Learn and Serve
       Formula                  Competitive           Funds               Funds
        Funds                     Funds                                                        $158,474
                                                                                                 Match
        $383,613                $1,113,134                $0             $99,000               $294,707
                                                                                              Other CNCS
         Match                     Match               Match                                     Funds
                                                         so                                    $256,000
        $295,248                  $341,650




                         Total CNCS Funds Retained by the Commission $257,474

                               Total Commission Matching Funds $294,707

                         Total CNCS Funds Awarded to Sub-grantees $1,752,747



r
      AmeriCorps
       Formula

        $383,613

         Match
                            r- I i-
                                AmeriCorps
                                Competitive



                                   Match
                                                  Learn and Serve


                                                        $0

                                                      Match
                                                                         PDAT


                                                                        $99,000
                                                                                            Administrative




                                                                                                Match
        $295,248                  $341,650             $0                                      $294,707
    Total # of SUBS           Total # of SUBS     Total # of SUBS      Total # of       I   Total # of SUBS
            5                         2                   0              SUBS                       0
                                                                            0
     Total # o f Sites         Total # of Sites   Total # of Sites   Total # of Sites       Total # of Sites
            10                                           0                  0



    Note: Other CNCS funds in the amount of $256,000 consist of Education Awards
    only to two subgrantees; Nebraska Teacher Corps. for $250,000 and Nebraska
    Educational Consortium for $6,000.
                                                                                     Appendix B
                                                                                     Page 1 of 2
                                 Office of Inspector General
                      Corporation for National and Community Service
                       State Commission Pre-Audit Survey: Nebraska
                      Detailed Engagement Objectives and Methodology

INTERNAL CONTROL

Our objective was to assess the adequacy of financial systems and documentation maintained by
the Commission to provide reasonable assurance that transactions were properly recorded and
accounted for to: (1) permit preparation of reliable financial statements and Federal reports; (2)
maintain accountability over assets; and, (3) demonstrate compliance with laws, regulations, and
other compliance requirements.

To achieve these objectives, we reviewed promulgated guidance as well as identified internal
control objectives and characteristics related to the Commission's ability to ensure compliance
with Federal laws, regulations, and program compliance. Because of the lack of documents, we
were unable to determine the Commission's control related to the control environment, activities
allowed or unallowed, and allowable costs (eligibility, matching, period of availability of
Corporation funds, procurement, suspension and debarment, program income, subgrantee
monitoring, and Commission reporting to the Corporation).

SELECTING SUBGRANTEES

Our objective was to determine if the Commission had an open, competitive process to select
national service subgrantees, including policies and procedures related to assessing the adequacy
of potential subgrantee financial systems, subgrantee controls to administer a Federal grant
program, and processes for preventing conflicts of interest in the selection process at the
Commission. Due to the lack of documented policies and procedures, we were unable to
determine if the Commission's systems and controls for selecting subgrantees were functioning
as designed.

To achieve these objectives, we interviewed Commission management, to the extent possible, to
determine procedures performed by the Commission during the pre-award financial and
programmatic risk assessment of potential subgrantees for the pre-audit survey period.

Next, we obtained and reviewed available documentation to determine if selection officials
signed conflict-of-interest and privacy forms for each subgrantee applicant tested and if the
Commission maintained these forms. Documentation included peer review packages,
correspondence, memoranda, scorecards, and peer review assessment sheets.

ADMINISTERING GRANT FUNDS

Our objectives were to:

              Assess the adequacy of systems and controls used by the Commission to maintain
              appropriate financial management systems to disburse funds and track
              Commission and program expenses according to legal and grant requirements.
                                                                                     Appendix B
                                                                                     Page 2 of 2


               Determine if the Commission's organizational structure, staffing level, and
               staffing mix were conducive to effective grant administration.

               Determine if the Commission provided adequate guidance to subgrantees related
               to the maintaining of financial systems, records, supporting documentation, and
               the reporting of subgrantee activity.

               Assess the adequacy of financial systems and documentation maintained by the
               Commission to support oversight of subgrantees and required reporting to the
               Corporation, such as FSRs, enrollment and exit forms, change of status forms, and
               audit reports.

               Determine if the Commission had procedures in place to verify the accuracy and
               timeliness of reports submitted by subgrantees.

Because of the lack of supporting documentation, we were unable to achieve these objectives.

EVALUATING AND MONITORING GRANTS

Our objectives were to:

              Identify and assess the adequacy of systems and controls used by the Commission
              to implement a comprehensive evaluation and monitoring process for its
              subgrantees.

       0      Determine if the Commission had an established subgrantee site visit program in
              place and assess the effectiveness of its design in achieving monitoring objectives.

              Determine the adequacy of Commission procedures to assess subgrantee
              compliance with Corporation regulations (e.g., eligibility of members, service-
              hour reporting, prohibited activities, payment of living allowances to members,
              and allowability of costs claimed under grants by subgrantees).

              Assess the adequacy of Commission procedures for obtaining, reviewing, and
              following up on findings included in subgrantee single audit reports, where
              applicable.

              Determine if program goals were established, and if program results and
              performance statistics were accurately reported and compared to these goals.

              Assess the adequacy of procedures in place to evaluate whether subgrantee
              programs were achieving their intended purposes.

Because of the lack of supporting documentation, we were unable to achieve any of these
objectives.
Dec   05   03     10: 4 6 a         NE V o l u n t e e r      Service            Comm           4024716286                                     P-2


                                                                                                                    State Cap~tol.6th floor west



                                           D*
                                                                                                                                p 0 BOX98927
Nebraska Volunteer                                                                                                     Lincoln, NE 68509-8927
                                                                                                        Phone (402) 471-6225 or (800) 291-8911
Service Commission                                                                                                                  F ~ x(402) 471 -6286
                                                                   Web Address: ~ ~ ! ! w . n o l . o r a h ~ m e / N V S CE-mail: nvsc@hhss.state.ne.us
serve your ne~ghborserveyour cornrnun~ty-serveyour country




                       December 2 , 2 0 0 3



                       J. Russell George
                       Inspector General
                       Corporation for National and Community Service
                       120 1 New Y ork Avenue, N W
                       Suite 830
                       Washington, DC 20525


                       Dear Mr. George:

                        The Nebraska Volunteer Service Commission appreciates the opportunity to
                        participate in the pre-audit survey review and to respond to the draft report.

                        In order to respond properly and accurately to this draft reporr, the Commission
                        requests a 90-day extension ro the December 5 , 2003, deadline. The reasons for the
                        extension are:
                                After the Pre-Audit Survey, Commission staff located several boxes of
                                computer diskettes that had been placed in storage following the
                                Comlnission's two moves during the last few years. These diskettes were
                                created by former staff and we believe will contain documentation helpful in
                                responding accurately to the draft report. The diskettes are filed and named by
                                date rather than subject and many are still in DOS format. It will take some
                                time to ascertain what information is on the diskettes.
                                A review of Commission meeting minutes and files has provided additional
                                evidence of the Conunission's compliance. We require additional time to
                                properly and accurately respond to findings in the draft report using this
                                infornution.

                        We believe it is important to clarify that intelnal controls have always been in place
                        at the Commission. As an agency of the State of Nebraska, and as a part of the
                        Health and Human Services System, state controls related to the commitment and
                        expenditure of funds have always directed the Commission's work. In addition. the
                        Commission was always ipided by the direction provided in the Corporation's
                        Provisions and Guidelines in its selection of subgrancees and its monitormg of
                        programs and expenditures.

                        In order to adhere to the Corporation's Administrati\/e Standards, t h e Comrnlss~on
                        developed and approved spec~ficpolicies and procedures for the Commission and a

                                         An Equal Opportunity/Affirmative Action Employer
                                                    Prmted w ~ t hsoy ~ r o~ nkrecycled paper
Dec   05   03   10:46a          NE   Volunteer    Servrce Comm          4024716286




                   risk-based monitoring strategy for its subgrantees. All of these were
                   implemented in the 2002-2003 program year. The administrative standards review
                   took place in September 2002, and outstanding issues have been resolved such that
                   Nebraska is now compliant with all Standards.

                   .lgain, we appreciate the opportunity to respond to this report. W e want to
                   accurately respond to all of the findings, but with the total change of staff during
                   200 1 and the two moves of the office due to the remodeling of the capital it has been
                   made it a challenge to complete within the 30 days given. We want to respond back
                   to you with accuracy, but need the additional time to complete. Please feel free to
                   contact either of us, should you have any additional questions.


                   Sincerely.



                   Debra Hartmann                                       Patrick Beans ($J4
                   Executive Director                                   Finance Committee Chair
                                         cmxfyqJmkAL &
                                         COMMUNITY
                                         SERVICEr-+--r-.


                                           December 19,2003



Ms. Debra Hartmann, Executive Director
Nebraska Volunteer Service Commission
State Capitol, 6thFloor
P.O. Box 98927
Lincoln, NE 68509-8927

Dear Ms. Hartman:

       We have carefully considered the Nebraska Volunteer Service Commission's request for an
extension to respond to the Office of Inspector General's draft pre-audit survey report. Due to strict
time constraints, we are unable to grant this request for an extension.

        On May 16,2003, the Nebraska Commission was notified of an approaching pre-audit survey,
three and one-half months before the entrance conference. On July 22,2003, one and one-half months
prior to the entrance conference, the auditors sent the Nebraska Commission a list of documents the
auditors would need to perform the pre-audit survey. The Nebraska Commission was unable to furnish
many of the documents requested for the pre-audit survey entrance conference held on September 3,
2003.

        Based on the limited data and documentation provided to auditors for the pre-audit survey,
additional information would not change the Office of Inspector General's decision to perform a full-
scope, incurred cost audit of the Nebraska Commission. The incurred cost audit will follow up on issues
identified in the pre-audit survey, and any documentation of Commission oversight of its programs will
certainly assist the Office of Inspector General with its review.

       If you have any questions, please contact Carol Bates, Audit Manager, at (202) 606-5000,
extension 248, or Dan Lybert, Assistant Inspector General for Audit, at (202) 606-5000, extension 548.

                                                      Sincerely,



                                                  J. Russell George
                                                  Inspector ~ e n e r a l

Copy to:
Rosie Mauk, Director, AmeriCorps
Peg Rosenberry, Director, Office of Grants Management
Alan Rosenthal, Cotton & Company
                            1201 New York A ~ w i u eX\V,
                                                     ,    Suite 830 * Washington, DC 20525
                               202-606-5000 * Hotline 800-452-8210 * www.cncsig.gov               USA-  =
                                                                                                  Freedom Corps
                                Senior Corps   * A~neriCorps+ Learn and Serve America             I hc P r c \ d c m \ C d l l   10 Scrbtce
                                     Corvoration for           A




To:           Russell George, Inspector General
             -
                 .,
                  ,                       3/,                 /

                      .J:   i-,-fix k'"       ' ~ / , , , L ' < L / <
From:        ' ~ a r ~ a rRosenberry,
                          et          irector of Grants Management
                                                                        I

Cc:           Michelle Guillermin, Chief Financial m d e r
              Rosie Mauk, Director of AmeriCorps


Date:         December 5,2003


Subject:      Response to OIG Draft Audit Report 04-06 and Management Decision,
              Pre-Audit Survey of Nebraska Volunteer Service Commission


We have reviewed the draft Pre-Audit Survey of the Nebraska Volunteer Service
Commission and this response also serves as the Corporation's Management Decision.
We agree with the auditors' recommendations and the Commission has indicated they are
implementing the policies and procedures recommended in the report. Within the next
four months, the Corporation will follow up with the Commission to confirm that
correction action is complete.




                            1201 New York Avenue, NW + Washington, DC 20525
                                  202-606-5000    *
                                                  www.nationalservice.org
                            Senior Corps + AmeriCorps      * Learn and Serve America   The President's Call to   eke
